WAIVER

Supreme Court, U.S.
FILED

APR 1 5 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

20-7514

Aimee Johnson

St. Louis County Public Health & Human
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by

the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

C)

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

St. Louis County Public Health & Human Services, Sarah Anderson, Hannah Jo Checketts and Kelly Jane
Thompson

Please check the appropriate box:

0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:
Date:

4/15/21

(Type or print) Name Nora Christie Sandstad
0 Mr.

0 Mrs.

Ms.

Firm

St. Louis County Attorney's Office

Address

100 N 5th Avenue West, room 501

City & State

Duluth, Minnesota

Phone

218.726.2323

0

Miss

Zip 55802
Email sandstadn@stlouiscountymn.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or
,lAimee Johnson
!John Bjorkman & Patrick O'Neill
cc' 'Kathryn Landrum

EL

APR 2 7 2021
4IFFICE OF THE CLERK

SUPREME COURT, U

